 

IN THE

Supreme Court of the Anited States

KENNETH SHELTON,

Petitioner,
v.

ANTHONEE PATTERSON,
Respondent.

On Petition for a Writ of Certiorari
to the Commonwealth Court of Pennsylvania

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,049 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 24, 2020.

1
_f.
Colin cased Hogan

Wilson-Epes Printing Co., Inc.
